No. 20-5795
IN THE SUPREME COURT OF
THE UNITED STATES
DON TEDFORD,

v.

Petitioner

PENNSYLVANIA,
Respondent
ON PETITION FOR WRIT OF CERTIORARI TO THE
SUPREME COURT OF PENNSYLVANIA
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(g), I
certify that the brief in opposition to the petition for
writ of certiorari contains 5,657 words, excluding
the parts of the petition that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on this 5th day of March, 2021

i

/s/ William R. Stoycos
WILLIAM R. STOYCOS *
Senior Deputy Attorney General
Appeals & Legal Services Section
[Counsel for Respondents]
*Counsel of Record
PA Office of Attorney General
Strawberry Square, 16th Floor
Harrisburg, PA 17120
Phone: (717) 787-1401
Fax: (717) 783-5431
E-Mail: wstoycos@attorneygeneral.gov
DATE: March 5, 2021

ii

